<html>
<title> - EXAMINING THE RACIAL AND GENDER WEALTH GAP IN AMERICA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    EXAMINING THE RACIAL AND GENDER
                         WEALTH GAP IN AMERICA

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON DIVERSITY

                             AND INCLUSION

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                           SEPTEMBER 24, 2019

                               ----------                              

       Printed for the use of the Committee on Financial Services

                           Serial No. 116-51
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
42-351 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 MAXINE WATERS, California, Chairwoman

CAROLYN B. MALONEY, New York         PATRICK McHENRY, North Carolina, 
NYDIA M. VELAZQUEZ, New York             Ranking Member
BRAD SHERMAN, California             PETER T. KING, New York
GREGORY W. MEEKS, New York           FRANK D. LUCAS, Oklahoma
WM. LACY CLAY, Missouri              BILL POSEY, Florida
DAVID SCOTT, Georgia                 BLAINE LUETKEMEYER, Missouri
AL GREEN, Texas                      BILL HUIZENGA, Michigan
EMANUEL CLEAVER, Missouri            SEAN P. DUFFY, Wisconsin
ED PERLMUTTER, Colorado              STEVE STIVERS, Ohio
JIM A. HIMES, Connecticut            ANN WAGNER, Missouri
BILL FOSTER, Illinois                ANDY BARR, Kentucky
JOYCE BEATTY, Ohio                   SCOTT TIPTON, Colorado
DENNY HECK, Washington               ROGER WILLIAMS, Texas
JUAN VARGAS, California              FRENCH HILL, Arkansas
JOSH GOTTHEIMER, New Jersey          TOM EMMER, Minnesota
VICENTE GONZALEZ, Texas              LEE M. ZELDIN, New York
AL LAWSON, Florida                   BARRY LOUDERMILK, Georgia
MICHAEL SAN NICOLAS, Guam            ALEXANDER X. MOONEY, West Virginia
RASHIDA TLAIB, Michigan              WARREN DAVIDSON, Ohio
KATIE PORTER, California             TED BUDD, North Carolina
CINDY AXNE, Iowa                     DAVID KUSTOFF, Tennessee
SEAN CASTEN, Illinois                TREY HOLLINGSWORTH, Indiana
AYANNA PRESSLEY, Massachusetts       ANTHONY GONZALEZ, Ohio
BEN McADAMS, Utah                    JOHN ROSE, Tennessee
ALEXANDRIA OCASIO-CORTEZ, New York   BRYAN STEIL, Wisconsin
JENNIFER WEXTON, Virginia            LANCE GOODEN, Texas
STEPHEN F. LYNCH, Massachusetts      DENVER RIGGLEMAN, Virginia
TULSI GABBARD, Hawaii
ALMA ADAMS, North Carolina
MADELEINE DEAN, Pennsylvania
JESUS ``CHUY'' GARCIA, Illinois
SYLVIA GARCIA, Texas
DEAN PHILLIPS, Minnesota

                   Charla Ouertatani, Staff Director
                Subcommittee on Diversity and Inclusion

                     JOYCE BEATTY, Ohio, Chairwoman

WM. LACY CLAY, Missouri              ANN WAGNER, Missouri, Ranking 
AL GREEN, Texas                          Member
JOSH GOTTHEIMER, New Jersey          FRANK D. LUCAS, Oklahoma
VICENTE GONZALEZ, Texas              ALEXANDER X. MOONEY, West Virginia
AL LAWSON, Florida                   TED BUDD, North Carolina
AYANNA PRESSLEY, Massachusetts       DAVID KUSTOFF, Tennessee
TULSI GABBARD, Hawaii                TREY HOLLINGSWORTH, Indiana
ALMA ADAMS, North Carolina           ANTHONY GONZALEZ, Ohio, Vice 
MADELEINE DEAN, Pennsylvania             Ranking Member
SYLVIA GARCIA, Texas                 BRYAN STEIL, Wisconsin
DEAN PHILLIPS, Minnesota             LANCE GOODEN, Texas
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    September 24, 2019...........................................     1
Appendix:
    September 24, 2019...........................................    31

                               WITNESSES
                      Tuesday, September 24, 2019

Asante-Muhammad, Dedrick, Chief of Race, Wealth, and Community, 
  National Community Reinvestment Coalition (NCRC)...............     6
Cook, Lisa, Professor of Economics, Michigan State University....    11
Kijakazi, Kilolo, Institute Fellow, Urban Institute..............     5
Krawcheck, Sally, Co-Founder and Chief Executive Officer, 
  Ellevest.......................................................     9
Pyle, Mariko Chang, Researcher, Author, and President, Mariko 
  Chang Consulting, Inc..........................................     8

                                APPENDIX

Prepared statements:
    Asante-Muhammad, Dedrick.....................................    32
    Cook, Lisa...................................................    94
    Kijakazi, Kilolo.............................................   105
    Krawcheck, Sally,............................................   117
    Pyle, Mariko Chang...........................................    34

              Additional Material Submitted for the Record

Beatty, Hon. Joyce:
    Written statement of the Asset Funders Network...............   121
    Written statement of the Chenoa Fund.........................   211
    Report of the Closing the Women's Wealth Gap Initiative......   273
    Written statement of Compass Working Capital.................   308
    Written statement of FreeFrom................................   318
    Written statement of Inclusiv................................   321
    Report of the Institute for Women's Policy Research..........   332
    Written statement of the National Coalition of Asian Pacific 
      American Community Development.............................   422
    Written statement of the National Women's Law Center.........   425
    Article from The New York Times..............................   433
    Written statement of the Ohio Women's Policy Network.........   444
    Written statement of the Pew Research Center.................   449
    Written statement of PL+US...................................   457
    Written statement of Prosperity Now..........................   529
    ``Ten Solutions to Bridge the Racial Wealth Divide''.........   535
    Written statement of Uber....................................   571
    Written statement of UnidosUS................................   576
    Written statement of the Women's Fund........................   581

 
                    EXAMINING THE RACIAL AND GENDER
                         WEALTH GAP IN AMERICA

                              ----------                              


                      Tuesday, September 24, 2019

             U.S. House of Representatives,
                  Subcommittee on Diversity
                             and Inclusion,
                   Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:07 p.m., in 
room 2128, Rayburn House Office Building, Hon. Joyce Beatty 
[chairwoman of the subcommittee] presiding.
    Members present: Representatives Beatty, Clay, Green, 
Gottheimer, Gonzalez of Texas, Pressley, Adams, Dean, Garcia of 
Texas, Phillips; Wagner, Kustoff, Hollingsworth, Gonzalez of 
Ohio, Steil, and Gooden.
    Ex officio present: Representatives Waters and McHenry.
    Chairwoman Beatty. The Subcommittee on Diversity and 
Inclusion will come to order.
    Without objection, the Chair is authorized to declare a 
recess of the subcommittee at any time.
    Also, without objection, members of the full Financial 
Services Committee who are not members of this subcommittee are 
authorized to participate in today's hearing.
    Today's hearing is entitled, ``Examining the Racial and 
Gender Wealth Gap in America.''
    I now recognize myself for 4 minutes to give an opening 
statement.
    Today's hearing is centered around a critical mission of 
why this subcommittee exists. The racial and gender wealth gap 
is real, unacceptable, and actually much larger than people 
think.
    True wealth can be defined by adding up total assets 
including cash, retirement accounts, or your home, and then 
subtracting liabilities such as credit card debt, student 
loans, and mortgages, to reach your net worth.
    But according to the United States Census Bureau, the 
median net worth of white households was $130,800, while the 
median net worth of Latino households was $17,530, and for 
Black households, it was $9,590.
    For nearly all working families, the most powerful wealth-
building tools are homeownership and retirement savings. 
However, due to structural racism, redlining practices, 
outright discrimination, disparities, and the list goes on, 
along with predatory lending practices that disproportionately 
affect women and communities of color, it has been more 
difficult for certain families to actually build wealth across 
multiple generations.
    There is always talk about disparities in income between 
women and people of color as compared to their white peers, but 
socioeconomic differences do not explain away racial 
inequities.
    Today's reality is that the homeownership rate for Black 
households today is the same as it was in 1967, when race-based 
discrimination in housing was legal and did not happen by 
accident. And we have all heard those stories. Racial and 
gender inequities are not caused by individual behavior, but 
steeped in systems and policies that perpetuate past 
injustices.
    This subcommittee was founded to help leaders and Members 
of Congress confront the reality that our systems, our 
institutions, and our outcomes emanate from an unjust hierarchy 
on which the United States was built.
    According to Richard Rothstein, who authored, ``The Color 
of Law: A Forgotten History of How Our Government Segregated 
America,'' ``We have created a caste system in this country 
with African Americans kept exploited and geographically 
separated by racial explicit government policies, and although 
most of these policies are now off the books, they have never 
been remedied and their effects endure.''
    So, for that reason, I am proud to have today's hearing to 
help identify an underlying issue that perpetuates the racial 
and gender wealth divide, and to help set the stage for bold, 
comprehensive solutions to this pressing problem facing the 
nation.
    Barriers to wealth accumulation remain a growing issue 
facing our communities, in particular my constituents in the 
Third Congressional District of Ohio, and the nation at large. 
There is no one size that fits all. And I call on my colleagues 
within this committee to give this topic the full attention it 
deserves and to work together to implement multifaceted Federal 
policy solutions.
    I reserve the balance of my time for the Chair of the full 
Financial Services Committee, Chairwoman Maxine Waters.
    The Chair now recognizes the ranking member of ther 
subcommittee, Congresswoman Ann Wagner, for 5 minutes for her 
opening statement
    Mrs. Wagner. Madam Chairwoman, thank you so much for 
putting together this hearing today. It is a critical hearing 
as we direct congressional efforts towards addressing the 
racial and gender pay and wealth gaps.
    In 1976, one in twenty women were the sole breadwinners in 
their households. By 2013, it was one in four. And today, women 
are the breadwinner or co-breadwinner in nearly two-thirds of 
families with children.
    Given these substantial gains in the percentage of women 
participating in the workforce and growing our economy, we must 
ensure that women have equal access to opportunities to support 
their families, save for the future, and build assets.
    The good news is that we have seen a tremendous improvement 
in how women are compensated in the past few decades. A 2018 
pay scale study--which I would ask, Madam Chairwoman, that we 
submit for the record--
    Chairwoman Beatty. Without objection, it is so ordered.
    Mrs. Wagner. --comparing men and women with similar 
experience, industry and job level, found that women actually 
receive 98 cents for every dollar earned by men. This is 
fantastic progress. But there is still much to be done, 
particularly in addressing the wealth gap and the managers gap 
and ensuring that the American workforce is more flexible and 
family-friendly so that mothers can participate without facing 
unnecessary hurdles or sacrificing the well-being of their 
children, America's next generation.
    As a working woman, I worked before, during, and after I 
had my children. I have always been a passionate defender of 
equal pay for equal work. And in order to close the pay gap and 
empower more women and people of color to be leaders in our 
workforce, I am a proud cosponsor of H.R. 1935, the Wage Equity 
Act.
    This legislation would empower employees to utilize 
flexible work arrangements, proactively incentivize businesses 
to fix pay disparities, protect individuals in negotiating 
employment based upon merit, not salary history, target 
negotiation education for women, and protect employees in 
discussing their compensation with their colleagues.
    In 2017, the U.S. Government Accountability Office (GAO) 
found that women are underrepresented in the financial services 
industry, especially in management.
    In this industry, mathematicians, engineers, and physicists 
work alongside financiers and economists, but women receive far 
fewer degrees in math, statistics, computer science, and 
engineering, compared to men. The underrepresentation of women 
and minorities in well-paid Science, Technology, Engineering, 
and Math (STEM) careers is one of the underlying causes of the 
wealth gap.
    Creating greater diversity in STEM education and doing it 
at an early age is critical, not only for improving 
opportunities for women and minorities in finance, but across 
all workforce sectors. It is key to sustaining robust economic 
growth in the United States.
    That is why I sent a letter yesterday to the GAO--which I 
would like to submit for the record, Madam Chairwoman--
    Chairwoman Beatty. Without objection, it is so ordered.
    Mrs. Wagner. --requesting a study to assess how firms are 
supporting increased participation among women in STEM programs 
at the secondary, undergraduate, and graduate levels, and what 
best practices firms are using to recruit and retain women with 
STEM degrees. This study will help us continue to find 
solutions as we strengthen the U.S. financial services 
industry.
    I thank you. And I will now yield the remainder of my time 
to the ranking member of the full Financial Services Committee, 
Ranking Member Patrick McHenry from North Carolina.
    Mr. McHenry. I thank the ranking member, and I thank the 
chairwoman for holding this subcommittee hearing.
    This subcommittee's principle is pretty simple: Every 
American should have full and equal access to the same economic 
opportunities. The data indicating that there are gender and 
racial wealth gaps tells us that that is not the case.
    Financial firms and other companies of all types have 
recognized the negative consequences of the wealth gaps in this 
country. Firms are taking proactive steps to address the 
underlying conditions which result in women and minorities 
earning less, and thus saving less. Initiatives such as 
financial literacy training, and changes to family leave and 
childcare policies, that I have been supportive of, and pushes 
for higher participation in STEM programs have been effective, 
but we need to do more.
    So, thank you for your participation, thank you for your 
initiatives, and we look forward to a good hearing.
    Chairwoman Beatty. Thank you.
    Today, we welcome the testimony of a very diverse and 
distinguished panel of five witnesses. Thank you.
    First, we welcome the testimony of Dedrick Asante-Muhammad, 
the chief of race, wealth, and community at the National 
Community Reinvestment Coalition (NCRC). He oversees the NCRC's 
fair housing, fair lending, and small-business programs. Prior 
to his role, he was the senior director of the economic 
department and executive director of the Financial Freedom 
Center.
    Second, we welcome the testimony of Kilolo Kijakazi, who is 
an institute fellow at the Urban Institute. Ms. Kijakazi's 
research is focused on economic security, structural racism, 
and the racial wealth gap. She is the author of the book, 
``African-American Economic Development and Small Business 
Ownership.'' She is also an advisor for the Closing the Women's 
Wealth Gap Initiative, and was a member of the bipartisan 
Commission on Retirement Security and Personal Savings.
    Third, we welcome the testimony of Dr. Mariko Pyle, a 
researcher and independent consultant specializing in external 
evaluation of grants that seek to increase faculty diversity 
and bring underrepresented groups into STEM. Dr. Pyle is a 
national expert on the wealth gap, especially gender and racial 
dimensions of wealth and equality. She is also a founding 
member of the Closing the Women's Wealth Gap Initiative, and a 
member of the Insight Center's Experts of Color Network.
    Fourth, we welcome the testimony of Sally Krawcheck, who is 
the Chair of the Ellevest Network, a 135,000-strong global 
professional women's network. Ms. Krawcheck is the CEO and co-
founder of Ellevest, a digitally first mission-driven 
investment platform for women.
    Before launching Ellevest, Ms. Krawcheck built a successful 
career as the CEO of Merrill Lynch, Smith Barney, U.S. Trust, 
Citi Private Bank, and Sanford C. Bernstein. She was also chief 
financial officer for Citigroup.
    And finally, we welcome the testimony of Dr. Lisa Cook, an 
associate professor in the Department of Economics at the James 
Madison College at Michigan State University. She served as 
president of the National Economic Association from 2015 to 
2016, and currently serves as co-director of the American 
Economic Association Summer Training Program.
    Prior to this academic appointment, and while on the 
faculty at Harvard University's Kennedy School of Government, 
she was also the deputy director for African Research and 
Programs at the Center for International Development at Harvard 
University. Wow!
    The witnesses are reminded that their oral testimony will 
be limited to 5 minutes.
    And without objection, your written statements will be made 
a part of the record.
    The witnesses are reminded to turn on their microphones and 
abide by the three lights in front of you: Green means go, 
yellow means wrap up, and red means stop.
    We are going to start with Ms. Kijakazi. And you are now 
recognized for 5 minutes to give an oral presentation of your 
testimony.

STATEMENT OF KILOLO KIJAKAZI, INSTITUTE FELLOW, URBAN INSTITUTE

    Ms. Kijakazi. Chairwoman Beatty, Ranking Member Wagner, and 
members of the subcommittee, thank you for inviting me to 
testify today.
    The views expressed are my own and should not be attributed 
to the Urban Institute, its trustees, or its funders.
    This hearing represents a critical step in work that has 
been done to bring the racial and gender wealth gaps to 
national attention.
    My remarks will focus on three key points. First, the 
racial wealth gap is not the result of bad financial choices by 
people of color. It was created through structural racism. 
Second, to understand and effectively address the racial wealth 
gap, we need more expansive data collection that is federally 
funded. Third, the gap can be closed, but it will require bold 
equitable solutions that focus on policy change, not changing 
people's behavior.
    The racial wealth gap is the difference in net worth 
between families of color and white families. The median wealth 
of white families in 2016 was 10 times the wealth of Black 
families, and 8 times the wealth of Latinx families.
    Research demonstrates that the racial wealth gap was 
created by policies, programs, and institutional practices 
designed to facilitate wealth accumulation by white families, 
while impeding wealth-building by, or stripping wealth from, 
families of color.
    These policies include human trafficking and bondage of 
people of African descent to build wealth for white people, 
followed by policies that restricted Black home and business 
ownership, employment, and educational opportunities. Latinx 
families experienced extensive land loss, especially during the 
Manifest Destiny period and displacement through deportation 
thereafter.
    Native Americans lost much of their land and natural 
resources through wars, treaties, and forced displacement, 
including through the Homestead Act. Asian Americans faced 
special fees, taxes, and regulations that made them less 
competitive with white people, and Japanese Americans were 
interned during World War II, losing their freedom and their 
assets.
    It was not until 1900 that all States passed legislation 
allowing women to control their property, and codified labor 
market discrimination existed into the 1970s. More recently, 
families of color were targeted for subprime mortgages, even 
when they qualified for prime loans, resulting in a loss of 
homeownership and equity.
    The racial wealth gap persists even when Black families 
make all of the ``right'' choices. Black people with college 
degrees have less wealth than white high school dropouts. Black 
people who work full-time have less wealth than unemployed 
white people. Two-parent Black families have less wealth than 
single-parent white families.
    The Ford Foundation funded the first research that was 
specifically designed to measure the racial wealth gap and to 
disaggregate the data not only by race and ethnicity but also 
by country of origin and Tribal affiliation. But the study was 
limited to 5 cities, for 1 year.
    We need federally funded data collected periodically to 
better understand the drivers of the racial and gender wealth 
gaps and to inform policymakers. A possible solution is to 
expand the Federal Reserve Board's Survey of Consumer Finances.
    The racial and gender wealth gaps are not unsolvable 
problems, but they require bold, equitable policy solutions to 
eliminate them.
    ``Baby bonds'' are a bold solution proposed by Darrick 
Hamilton that would give all newborns a publicly funded 
endowment ranging from $500 to $60,000 based on the family's 
wealth. These bonds would be held by the Federal Government 
until the child becomes a young adult and can use them to pay 
for an asset like higher education or a home. One analysis 
showed that baby bonds nearly closed the racial wealth gap. The 
cost of baby bonds could be covered by a more equitable use of 
existing tax expenditures for asset building.
    Over 70 percent of tax expenditures intended to help 
families build wealth go to the top 20 percent of income 
earners. A more equitable use of these tax subsidies would 
cover the cost of baby bonds.
    So, in summary, wealth gaps are caused by discriminatory 
policies and practices.
    Thank you.
    [The prepared statement of Ms. Kijakazi can be found on 
page 105 of the appendix.]
    Chairwoman Beatty. Thank you so much, Ms. Kijakazi.
    And now, I would like to recognize Mr. Asante-Muhammad for 
5 minutes.

 STATEMENT OF DEDRICK ASANTE-MUHAMMAD, CHIEF OF RACE, WEALTH, 
AND COMMUNITY, NATIONAL COMMUNITY REINVESTMENT COALITION (NCRC)

    Mr. Asante-Muhammad. Good afternoon, and thank you for 
inviting me here, as chief of race, wealth, and community at 
the National Community Reinvestment Coalition, to speak about 
the racial wealth divide and what must be done to address this 
critical issue.
    NCRC was formed in 1990 and has grown into an association 
of more than 600 community-based organizations that promote 
access to essential banking services, affordable housing, 
entrepreneurship, job creation, and vibrant communities for 
America's working families.
    Thanks to the groundbreaking work of colleagues like Dr. 
Kilolo Kijakazi and Dr. Mariko Chang Pyle, there is growing 
recognition of the ongoing challenge of a deep and too-often 
growing racial wealth divide.
    As I often state, the foundation of racial inequality is 
racial economic inequality, and the foundation of racial 
economic inequality is racial wealth inequality.
    As the country's demographics continue to change, the 
racial wealth divide is no longer primarily a challenge of 
disenfranchised minorities but rather a threat to the American 
middle class. As the report, ``Dreams Deferred,'' notes, since 
the early 1980s, median wealth among Black and Latino families 
has been stuck at less than $10,000, while white household 
median wealth grew from about $105,000 to $140,000.
    In spite of the growth of white wealth, national median 
wealth has slightly declined from about $84,000 to $82,000, 
showing how the racial wealth divide is weakening the American 
middle class as a whole.
    Similar to the racial wealth divide, there has been ongoing 
racial inequality for the two largest assets in Americans' 
wealth portfolio: business ownership, and home ownership.
    For the last 40 years, Black and Latino homeownership rates 
have stayed below 50 percent while white homeownership has 
remained at about 70 percent. In the second quarter of 2019, 
whites had a homeownership rate of 73 percent, with Latino 
homeownership at almost 47 percent, and Black homeownership 
near 41 percent.
    In regard to business ownership, although 13 percent of the 
U.S. population is Black, only 10 percent of African Americans 
are businesses owners, and only 2 percent of businesses with 
employees are Black-owned. Hispanics comprise 17 percent of the 
population, but own only 6 percent of small businesses with 
employees.
    As was done to jump-start the white American middle class, 
significant investment capital must be invested to build 
African-American, Latino, and Native-American wealth. The 
report, ``Ten Solutions to Bridge the Racial Wealth Divide,'' 
reviews proposals to bridge racial and economic equality as a 
whole, and the racial wealth divide in particular.
    This report was a collaboration between NCRC, the Kirwan 
Institute for the Study of Race and Ethnicity at the Ohio State 
University, and the Inequality Project of the Institute for 
Policy Studies. These proposals include ``baby bonds'', as was 
previously mentioned, similar to those in Senator Cory Bookers' 
2018 bill, the American Opportunity Accounts Act.
    We also propose a significant investment into affordable 
housing and homeownership, as exemplified in Senator Elizabeth 
Warren's American Housing and Economic Mobility Act, and 
Senator Bernie Sanders' Housing for All plan. Our paper also 
promotes the passage of H.R. 40, to establish a commission to 
study and develop reparation proposals for African Americans. 
Finally, improving data collection on race and wealth is 
another proposed solution.
    NCRC strongly advocates for improving data collection in 
regards to the racial wealth divide, such as the full 
implementation of Section 1071 of the Dodd-Frank Act, which 
would require the CFPB to collect and disclose better data on 
loans made to minority, women-owned, and small businesses.
    Similarly, NCRC advocates for the provisions of the 
previously mentioned American Housing and Economic Mobility Act 
that requires banks be examined where they are making a 
significant amount of retail loans outside the geographical 
area of bank branches and leveling the playing field for 
financial institutions by requiring nonbanks to be examined 
under the Community Reinvestment Act (CRA).
    Bold policy proposals are needed to address the national 
crisis of racial wealth inequality, and we thank the House 
Financial Services Committee's Subcommittee on Diversity and 
Inclusion for the opportunity to discuss these necessary 
reforms.
    [The prepared statement of Mr. Asante-Muhammad can be found 
on page 32 of the appendix.]
    Chairwoman Beatty. Thank you very much.
    Ms. Pyle, you are now recognized for 5 minutes to give an 
oral presentation on your testimony.

    STATEMENT OF MARIKO CHANG PYLE, RESEARCHER, AUTHOR, AND 
            PRESIDENT, MARIKO CHANG CONSULTING, INC.

    Ms. Pyle. Chairwoman Beatty, Ranking Member Wagner, and 
members of the subcommittee, my name is Mariko Chang Pyle, and 
I am a former associate professor of sociology at Harvard 
University, and I'm currently the president of Mariko Chang 
Consulting. I appreciate the opportunity to testify about the 
women's wealth gap.
    The women's wealth gap not only impacts women, it affects 
men, families, and especially children. Two-thirds of mothers 
are the family breadwinners or co-breadwinners. About one 
quarter of children under age 18 live in a single-mother 
family. More than ever before, the economic security of 
families rests on women's shoulders.
    Data from the 2013 Survey of Consumer Finances, provided by 
the Federal Reserve Board, revealed a significant wealth gap 
between single men and women during their prime working ages of 
18 to 64. Single men, those who had never been married or were 
divorced or widowed, had a median wealth of $10,150. In 
comparison, single women owned $3,210. Expressed as a 
proportion, single women had 32 cents for every dollar of 
wealth owned by single men. These gaps remain when we take into 
consideration other factors that impact wealth such as age, 
income, and level of education.
    And the wealth gap is magnified for women of color. Single 
Black women of prime working age have a median wealth of $200. 
And for single Hispanic women, it is $100, which amounts to 
less than a penny of wealth for every dollar owned by their 
single, white, non-Hispanic male counterparts.
    Women of all races also experience a motherhood wealth 
penalty, with mothers possessing only 20 percent as much wealth 
as fathers. Again, this penalty is much greater for women of 
color. Black and Hispanic women with children under age 18 have 
a median wealth of zero, and $50, respectively. In contrast, 
single white men who are fathers have a median wealth of more 
than $41,000.
    While wages no doubt contribute to wealth-building, they 
are not the sole determinant. To illustrate, never-married 
women working full-time have almost closed the wage gap, but 
they have only about one-third as much wealth as never-married 
men.
    Closing the wage gap is insufficient for closing the wealth 
gap for two reasons. The first reason is that women bear a 
negative economic cost of parenthood. Mothers experience a wage 
penalty, and women are more likely to be single parents 
supporting more people on a single income. And two or more 
people cannot live as cheaply as one.
    The second reason is that women lack full access to what I 
have termed the ``wealth escalator.'' The wealth escalator is 
made up of mechanisms built into our current systems that help 
people turn their incomes into wealth more quickly. The wealth 
escalator consists of government benefits, such as Social 
Security; employer-related fringe benefits, such as paid sick 
days and contributions to retirement plans; and tax breaks that 
help people retain wealth.
    Women, and especially women of color, lack full access to 
the wealth escalator because of the types of jobs they have, 
because they engage in caregiving, and because they have lower 
incomes. Women are also carrying more debt, which further 
restricts their ability to build wealth.
    Differential access to the wealth escalator cements other 
inequities into place, magnifying the impact of the wage gap, 
the motherhood wealth penalty, and for women of color, the 
racial wealth gap.
    To reduce the wealth gap, we need to focus on pay equity, 
but we must also expand access to the wealth escalator so it is 
more accessible to those of lower income, and so that 
caregivers are not penalized.
    I will give three examples of ways this can be done. First, 
Social Security reforms could incorporate caregiver credits, so 
the years spent out of the labor market or working part-time 
for caregiving do not lower average retirement benefits. 
Second, access to paid family and medical leave is essential.
    Third, if asset limits to qualify for public benefits are 
raised, or if certain types of assets, such as vehicles, are 
excluded from limits, these assets can help low-income women 
get back on their feet in times of temporary need rather than 
becoming an additional barrier to building wealth.
    In summary, reducing the women's wealth gap is not only 
about addressing the wage gap. It requires a more comprehensive 
approach. Doing so is not only good for women, but it is 
essential for improving the well-being of children, families, 
and our nation.
    I appreciate the opportunity to be here, and I welcome your 
questions.
    [The prepared statement of Ms. Pyle can be found on page 34 
of the appendix.]
    Chairwoman Beatty. Thank you very much.
    Ms. Krawcheck, you are now recognized for 5 minutes to give 
an oral presentation of your testimony.

 STATEMENT OF SALLY KRAWCHECK, CO-FOUNDER AND CHIEF EXECUTIVE 
                       OFFICER, ELLEVEST

    Ms. Krawcheck. Thank you, and good afternoon to everyone.
    Madam Chairwoman, ranking members, and members of the 
subcommittee, thank you for the invitation to testify on the 
state of the gender wealth divide in America today.
    My passion for this topic was the result of a recognition a 
few years ago that the retirement savings gap, the retirement 
savings crisis in this country, can be looked at through the 
lens of gender.
    Women today live 6 to 8 years longer than men; 75 percent-
plus of women die single; and women retire with two-thirds the 
money of men, and less for women of color.
    The wealth gap, as noted by this panel, is the result of 
many things: the gender and racial pay gap; the ``pink tax''; 
the debt gap; the promotion gap; and the domestic work gap, 
among others. And I would add another one to it and to your 
wealth escalator, which is the gender-investing gap, in which 
women today keep 71 cents out of every dollar of their wealth 
in cash, more than men do, rather than invest it.
    There are many structural reasons for this and much data 
showing this. I would like to address a couple of issues that 
aren't typically addressed in terms of the investment gap and 
the money gaps.
    The first is, in our society today, boys and girls receive 
different messages about money. They receive them from 
childhood through adulthood. And so we, the genders, 
internalize different beliefs about and approaches to money. 
Research shows that young boys in our households today are told 
to go out and earn money, become a CEO. They are taught to 
invest, they see dad invest, and girls are taught to be 
careful, clip coupons, and save.
    Boys today receive higher allowances for the same chores as 
girls, and boys today receive higher grades in math for the 
same answers as girls.
    Later in life, as girls grow into young women, we tend to 
be patronized about money. Articles in women's magazines 
explain to us why budgeting is hard; websites tell us to take 
the quiz to see your money type; and entire books are written 
to guilt women into giving up the latte, with the off-basis 
premise that giving up these small luxuries will be the key to 
her financial security.
    In contrast, young men are told to dare and grow their 
money.
    So we women tend to, over the course of our lives, 
internalize that we are bad with money. In fact, it is today an 
attractive feminine characteristic in our society to be bad 
with money as a female. Is it any wonder, then, that we are 
less confident, and that money today for women is associated 
with loneliness and stress and isolation, not with power and 
independence?
    The second issue relates to the representation of females 
in the money industry. In my old industry, the industry in 
which I spent more than 2\1/2\ decades on Wall Street, today: 
86 percent of financial advisors are men, overwhelmingly white 
men; 90 percent of Wall Street traders are men; 90 percent of 
mutual fund managers are men; and 98 percent of mutual fund 
assets are managed by men. This, despite the fact that the 
research tells us that women are as good or better money 
managers than men.
    But lest one miss the point, the industry symbol of Wall 
Street is a bull, a big, snorting, angry, anatomically correct, 
hypermasculine bull. And it isn't getting any better.
    Instead, the diversity actually went backwards after the 
financial crisis. Again, even though research shows that women 
are as good or better investors, and even though the research 
points clearly to the superior performance of companies with 
diverse leadership teams--and by ``superior performance,'' that 
includes lowering risk, which is something I think would be 
important for all of us to have done for Wall Street.
    Given the skew in the industry that serves us all in the 
money industry, it should perhaps be no surprise that women 
today invest less than men do.
    This gender wealth gap is important and is a ripple effect. 
For example, the power inequity that allows the harassment of 
the #MeToo movement is also a money inequity. I like to say 
that the amount of money that women historically could have 
earned from investing is ``No More #MeToo'' money; get-your-
hand-off-my-leg money.
    And so, getting more money in the hands of women and others 
is why we founded Ellevest. We built an investing algorithm 
that works to remove gender bias by adjusting for the fact that 
women live longer and our salaries peak sooner, and we work to 
be as accessible as possible, having very low investing 
minimums to make it accessible for more people. And we are 
among the most quickly of the digital investment platforms 
engaging with more money in a positive, nonpatronizing way.
    Today, many women's primary emotions around money are shame 
and loneliness, but our research indicates that a key driver of 
a woman's confidence in achieving her future goals is whether 
they are actually investing and saving.
    [The prepared statement of Ms. Krawcheck can be found on 
page 117 of the appendix.]
    Chairwoman Beatty. Thank you.
    Dr. Cook, you are now recognized for 5 minutes to give an 
oral presentation of your testimony.

STATEMENT OF LISA COOK, PROFESSOR OF ECONOMICS, MICHIGAN STATE 
                           UNIVERSITY

    Ms. Cook. Chairwoman Beatty, Ranking Member Wagner, and 
eminent members of this subcommittee, thank you for the 
opportunity to testify today about examining the racial and 
gender wealth gap in America.
    First, 11 to 1: from the survey of consumer finances, this 
is the ratio of white median household net worth to Black 
median household net worth.
    Second, 31,000 to 1: from the Federal Reserve Bank of 
Boston, Sandy Darity, Darrick Hamilton, and the co-authors of 
the ``Color of Wealth in Boston'' report, this is the ratio of 
white median household net worth to Black median household net 
worth in Boston.
    Third, 50 to 1: from the Census Annual Survey of 
Entrepreneurs, this is the number of white to Black 
entrepreneurs in the United States.
    In a widely covered speech on income and wealth inequality 
in 2014, then-Chair of the Federal Reserve, Janet Yellen, 
identified four pillars of opportunity or building blocks for 
the gains in income and wealth that most Americans hope are 
within reach of those who strive for them: resources available 
for children, including education; affordable higher education; 
business ownership; and inherited wealth. Given the data on 
entrepreneurship and net worth, it appears that the pathways to 
opportunity in America are blocked for many racial and ethnic 
minorities.
    What we know from American economic history and current 
data is that laws, policies, institutions, and practices that 
impede opportunity have emerged, and these are diminishing 
their expected outcomes.
    To quote the opening to the Roosevelt Institute's 2016 
report, ``Rewrite the Racial Rules: Building an Inclusive 
American Economy,'' until economic and social rules work for 
all, they are not working.
    In the short time I have left, I would like to illustrate 
how this works through one of the critical inputs to economic 
growth, invention and innovation, the focus of my long-term 
research.
    Despite major gains in the 1970s, women and African 
Americans remain underrepresented in the innovation economy. 
Allow me to start with a few basic facts about the innovation 
economy. In 2014, the median innovation worker earned $81,000 
compared to $36,000 for all workers. In general, innovation 
economy jobs are growing faster than in other sectors, and 
employment rates are lower.
    My research suggests that inequality exists at every stage 
in the innovation process for women and underrepresented 
minorities, that is, education, training, and commercialization 
of invention. I will review each in turn.
    Education: In 1970, 9 percent of Ph.D.'s in science and 
engineering fields were awarded to women, and by 2014, it was 
41.6 percent. In 1970, 1 percent of all science and engineering 
Ph.D.s went to African Americans. In 2014, the share that went 
to African Americans was 3.5 percent. The trends are similar 
for master's degrees and bachelor's degrees and are comparable 
through 2014.
    What is preventing participation in STEM fields? We have 
some clues. The recent research of economist Dania Francis 
suggests that Black girls are disproportionately 
underrecommended for AP calculus classes by math teachers, and 
we know these classes are the pathways to STEM careers.
    There is a lot more research that suggests that women in 
underrepresented minorities (UIRM), are interested in STEM, but 
are not consistently supported throughout their academic 
careers.
    A second stage in participating in the innovation economy 
is to be actively engaged in invention. Although participation 
has increased at this critical training stage, in 2015, white 
women made up only 18 percent of scientists and engineers 
working in science and engineering occupations; African 
American women, 2 percent; and African American men, 3 percent.
    Unemployment for underrepresented minority men at just 
above 4 percent is higher than for white and Asian men, and 
higher than the average for all scientists and engineers. The 
unemployment rate for African American women is higher than the 
unemployment rate overall, nearly double that of all scientists 
and engineers.
    There are big divides with respect to patenting as well.
    The third and final stage is the one where wealth is 
accumulated.
    Finally, my co-author, Yanyan Yang, and I calculated that 
U.S. GDP per capita can be 0.6 percent to 4.4 percent higher if 
more women and African Americans participated at the beginning 
of the innovation process.
    [The prepared statement of Dr. Cook can be found on page 94 
of the appendix.]
    Chairwoman Beatty. Thank you.
    And thank you to all of the witnesses.
    I now yield myself 5 minutes for questions. I am going to 
try to get through several questions quickly.
    The first question will go to Dr. Cook, Ms. Krawcheck, and 
Mr. Asante-Muhammad.
    Evidence shows that an additional way or pathway to 
building wealth is through investments and in securities. Yet, 
Black families are less likely to own stock than white 
families, partly because Black families have less discretionary 
income, with little or none to invest.
    Several of you mentioned my good friend, Darrick Hamilton, 
and the baby bonds issue. In 2014, President Obama established 
the My Retirement Accout (myRA) program to help low- and 
middle-income workers, regardless of color, who don't have 
access to, let's say, a 401(k) or a pension plan, to start 
saving for retirement. In 2017, the Trump Administration ended 
this program.
    So, to the three of you, how could programs like myRA or 
other Federal saving programs help families invest comfortably 
to build a nest egg in the future?
    Ms. Cook. I would just suggest that this program be 
reinstituted. It is not exactly my research, but I know the 
work of Darrick Hamilton and Sandy Darity--I used to be Sandy 
Darity's research assistant, so I am quite familiar with their 
research.
    But I would say that this is urgent because we are starting 
from so far back that we are talking about Boston with a 
30,000-to-1 net worth ratio, it is urgent that programs like 
this be reinstated.
    Mr. Asante-Muhammad. And I would add that I think, 
definitely, programs like myRA should be reinstated. We see the 
greatest wealth inequality happening in later years, but I 
think also additional programs--as was mentioned, for example, 
the baby bonds program--that provide investment opportunity and 
financial opportunities for people in their young adult lives 
are also essential.
    And I will just finally note that--and I do believe that 
the main challenge around investment for African American and 
Latino families is not just lack of discretionary income, it is 
that deep asset poverty. If you are not a homeowner, it is kind 
of challenging to say, I am going to go invest in stocks, 
before you have even solidified your household by owning a 
house.
    Chairwoman Beatty. Okay. Thank you.
    Anything you want to add, Ms. Krawcheck?
    Ms. Krawcheck. Yes, I would agree with all of that. I think 
more avenues to tax-deferred retirement savings are important, 
taking care of the finances of the family, credit card debt, 
existing student loan debt, et cetera, which keep individuals 
from investing for retirement.
    What we are trying to do at Ellevest for the private sector 
is keeping our minimums very low. High investment minimums, by 
their nature, really are sexist and racist at the end of the 
day, because if they are the ones who have the money and are 
able to overcome those high investment minimums, and working to 
keep it as plain-English, intuitive as possible, as opposed 
to--it is about reaching one's goals as opposed to buying this 
mutual fund or that stock.
    Chairwoman Beatty. And let me say, thank you.
    Earlier, we were having a conversation, talking about 
disparities, and we were talking about algorithms. And it was 
quite interesting that I told the story, as an African-American 
female, that when I stick my hands under the water fountain, 
that is based on people being in trials, 9 out of 10 times the 
water does not come on, and somebody next to me will put their 
hands under there and the water would come on.
    And so, when we talk about oftentimes people watching want 
to know, why do we always talk about race and ethnicity so much 
when we talk about disparities? And you finished the story for 
me. Do you want to say what you said with--
    Ms. Krawcheck. What we were talking about earlier is just 
so much medical research was done on a white male's heart 
attack, and crash dummies are built in the image of a male, so, 
the investing industry, probably not surprisingly, is an 
industry that has really been built by and for men. It is 
probably no surprise that so much about investing reminds you 
of sports, buying low, selling high, et cetera.
    Chairwoman Beatty. Thank you.
    My last question, because the time is--and Ms. Kijakazi and 
Ms. Pyle, we have a lot of young people sitting in the audience 
today.
    And so, when I think about the future and I think about 
debt, I can't help but think about the student loan debt.
    Can you share how that affects young people and 
millennials, who should be included in wanting to have a 
prosperous future?
    Ms. Kijakazi. Debt definitely impacts the ability of a 
young person to accumulate wealth over their lifetime.
    African American students are more likely to incur debt, 
which means that they have to delay when they are going to 
purchase a home, which means that the rate at which they can 
accumulate equity in their home is slower than that of white 
students. It absolutely affects how they can move forward in 
terms of asset accumulation.
    So, going back to baby bonds, if they had that kind of 
endowment at the beginning of their young adulthood, they would 
be able to invest in higher education without incurring as 
much, if any, debt, if that is the choice that they made for 
using their investment.
    Chairwoman Beatty. Thank you. My time is up.
    Ms. Pyle, we may be able to fit you in on someone else's 
question. But, thank you.
    I now yield 5 minutes for questioning to the ranking member 
of the subcommittee, Congresswoman Wagner.
    Mrs. Wagner. Thank you, Chairwoman Beatty.
    Studies have shown that when children are introduced to 
opportunities in different professions at a young age, they are 
more likely to enter those fields.
    Dr. Cook, because I know you have done research on this--
and I was stunned to hear about the underrecommended for AP 
courses for people of color and oftentimes young girls are 
seeing.
    What efforts are proactive companies undertaking to 
increase the number of women and minorities earning degrees in 
STEM programs? And what more can be done to increase that 
number, in your estimation?
    Ms. Cook. Thank you for your question.
    I happen to be the director of the American Economic 
Association's summer programs. Economics is a STEM field, and 
they come to Michigan State University. This is supported by 
the National Science Foundation. This is intensive mentoring. 
And it is intensive in the sense that I tell them all the time, 
``You belong here.''
    Mrs. Wagner. At what age do you start?
    Ms. Cook. This is for undergraduates. This is to encourage 
underrepresented minorities to do Ph.D.s in economics.
    Mrs. Wagner. Okay.
    Ms. Cook. And one thing they have always been told, many 
times throughout their educational career, is that they don't 
belong there. They don't belong in higher-level math courses, 
they don't belong in economics classes, in econometrics 
classes, in data science classes, in AI classes, for example.
    So, a lot of this has to do with mentoring, and that is 
what I do in this 2-month-long course. And I think most 
programs that are similar to it have a similar focus. And they 
also focus on different pathways to these careers.
    One that I would suggest, in addition to my own, is going 
to the Lemelson Center for the Study of Invention and 
Innovation at the National Museum of American History, to 
Spark!Lab, where children can go through the steps--there are 
about eight steps related to invention and innovation, and the 
last thing they do is develop innovation.
    So I think you are exactly right, in terms of the beginning 
of your statement. The earlier the exposure--Raj Chetty and his 
co-authors have work showing that children who are exposed to 
invention early have much better life outcomes, and they 
accumulate wealth. There are many outcomes that are better. So, 
I think that is perceptive.
    Mrs. Wagner. Thank you.
    Diversity and inclusion are two distinct but equally 
important factors with respect to hiring and retaining a 
diverse workforce.
    Dr. Cook, research has shown that recruitment efforts are 
only effective for increasing overall diversity when the 
company's culture is such that women and minorities want to 
stay. What strategies have you seen as effective for creating a 
more inclusive workspace?
    Ms. Cook. I am glad you asked.
    I think one of the biggest problems with respect to 
invention and innovation, if we are just talking about one 
sector of the economy, is workplace climate. You mentioned 
making workplaces more friendly for women. I interview 
entrepreneurs and tech firms every October, and one thing that 
I find is that women are kept out of a lot of the project 
management, a lot of the projects, because they have to go home 
and take care of children, for example. They have household 
duties. And the men on those teams tell me that they get 
punished--they see it, and they get punished. It might be 
implicit, but they get punished for not being there. So 
changing workplace climate, I think, is critical.
    Mrs. Wagner. Flexibility is absolutely key, workplace 
flexibility without there being repercussions because of that.
    I read your issue brief published in the Washington Center 
for Equitable Growth in July. And one topic that you discussed 
related to retention within STEM participation is the peer 
effects in doctoral STEM programs. You touched on it a little 
bit and how these efforts can impact whether women graduate 
within 6 years or potentially leave after the first year of a 
Ph.D. program.
    Can you elaborate briefly--we are going to run out of 
time--on these efforts and how we can improve this retention?
    Ms. Cook. One key thing with respect to science and 
engineering programs--and I will include economics in that--is 
that you can't just admit one woman into each cohort, because 
what you do is, allow them to be isolated. And if there are no 
women faculty--and that is true for many economics 
departments--you don't have the kind of mentorship or even role 
modeling that you need. So it is not only getting more in; it 
is getting them seen by others.
    Mrs. Wagner. It goes back to the whole concept of not just 
diversity but inclusion and acceptance.
    I have run out of time, and I have to run to the Floor, 
Madam Chairwoman, to give a Floor speech. I believe Mr. 
Gonzalez will be taking my seat, and then I will come back. I 
have more questions. I yield back.
    Thank you all very, very much.
    Chairwoman Beatty. Thank you very much.
    The Chair now recognizes the gentleman from Missouri, 
Congressman Clay, who is also the Chair of our Subcommittee on 
Housing, Community Development, and Insurance.
    You are now recognized for 5 minutes.
    Mr. Clay. Thank you, Madam Chairwoman, and thank you for 
holding this hearing. And thank the panelists for your 
participation today.
    Let me start with Ms. Pyle.
    I recently hosted a panel on the racial wealth gap. One of 
the panelists held the belief that we cannot discuss closing 
the wealth gap without acknowledging that middle- and upper-
class Black families have lost and are still losing wealth due 
to the segregation and denied benefits of African Americans.
    What do you think about that, and what are some solutions 
to amend these actions?
    Ms. Pyle. I see the racial and the gender wealth gaps as 
intricately interconnected. They have distinct components, but 
yet there are very similar structural causes that continue to 
exacerbate existing inequities. So, I feel that we can't talk 
about one without talking about the other.
    Women of color are experiencing both gaps. And actually, I 
argue that you cannot close the racial wealth gap unless you 
also close the gender wealth gap. Because women of color are 
more likely to be single, they are more likely to be raising 
the next generation, and so the two are intricately related.
    Mr. Clay. Thank you.
    Mr. Asante-Muhammad, how do we close the racial wealth gap, 
in your opinion?
    Mr. Asante-Muhammad. As mentioned, we helped produce a 
report entitled, ``Ten Solutions to Bridge the Racial Wealth 
Divide.'' And I think, what is very helpful in looking at 
inequality in the frame of wealth is that wealth helps us see 
the kind of multifaceted aspect, that it is not just getting 
the person into the right education program; it is not just 
household composition, because with all of these things, we 
still see deep wealth inequality. And that is because, again, 
wealth is an economic indicator that kind of factors in over 
generations.
    So, if we are going to address this issue, it is going to 
have to be kind of a comprehensive program to deal with these 
issues, things like, again, as mentioned, baby bonds, and full 
employment. I think one of the most important things government 
can do is make sure there is good, adequate information and 
understanding of our economic data in a racialized way.
    Mr. Clay. One of the other topics of discussion among the 
panelists and audience--and I am curious to hear your view--was 
of reparations and its role in closing the wealth gap.
    Do you have a view on reparations?
    Mr. Asante-Muhammad. Yes, I do. I believe reparations for 
African Americans, and separatereparations for Native Americans 
are essential. I think it is an important component of bridging 
racial wealth equality, and it is an important component of 
this country moving forward in terms of racial justice.
    I will make a note, though, that I think in a very 
regressive economy like we have today, even with a strong 
reparations program, we still could have ongoing racial wealth 
inequality. We need reparations and comprehensive progressive 
policy to actually help make sure we have more equity. 
Reparations alone won't do it, but it is definitely an 
essential step, I believe.
    Mr. Clay. Thank you for that response.
    Dr. Cook, what kind of solutions would you offer for 
closing the racial wealth gap? And are reparations included in 
any of those equations?
    Ms. Cook. I haven't studied many of the proposals for 
reparations closely. But I agree with what my colleague just 
said, that it can't be just money; it has to be reducing these 
barriers to participation in the economy.
    But one solution that I would suggest would be to augment 
community development financial institutions (CDFIs) that are 
particularly focused on closing the racial wealth gap. For 
example, Rende Progress Capital, in Grand Rapids, Michigan, is 
specifically focused on closing the racial wealth gap.
    They look at projects that have positive externalities for 
the community. They are profit-maximizing, but some of these 
would get overlooked by traditional credit committees when they 
were put forward. This is a less-than-2-year-old business, and 
I think that it has the right kind of focus on addressing the 
racial wealth gap. And I think there can be more of those. 
Those can be encouraged.
    Mr. Clay. And with closing the homeownership gap, to help 
families build equity and build investment.
    Ms. Cook. Absolutely. Entrepreneurship is a pathway to 
inherited wealth, for example. Homeownership--if we had the 
same conditions that we had pre-2008, I would not want 
homeownership. I would want--well, okay, I wouldn't want 
business ownership either. But I try to address broadly the 
conditions that are associated with financial crises.
    But I would say that the path to inherited wealth is 
entrepreneurship, not just homeownership, because lots of 
African American families and Hispanic families lost their 
entire intergenerational wealth in one home.
    Mr. Clay. Because they were steered into toxic mortgages.
    Ms. Cook. Absolutely.
    Mr. Clay. I yield back. Thank you.
    Chairwoman Beatty. I now recognize the gentleman from 
Indiana, Congressman Hollingsworth, for 5 minutes.
    Mr. Hollingsworth. Good afternoon. I am excited to see such 
a great panel, and I really appreciate the Chair and the 
Majority holding this very important hearing.
    This is a discussion that needs to be ongoing. I know much 
research has been dedicated to this area, and I really 
appreciate the work that everybody on the panel has done and 
all the conversation thus far.
    I was having a debate with a far-more-intelligent friend of 
mine a few months ago, and he was chastising me and maybe 
chiding the whole system a little bit in that we in public 
policy too frequently ask the question of, what has gone wrong, 
instead of asking a more thoughtful question about what went 
right in individual cases where something went well for either 
an individual, a group of individuals, or the country overall.
    And his point was that there are a lot of ways that things 
can go wrong, a lot of places where people can get stuck in an 
exit or an off-ramp from a pathway to success. But typically, a 
lot of things have to go right in order for an individual to 
break free and get to that success, get to their American 
Dream. Kind of that old Tolstoy principle: ``Happy families are 
all alike; every unhappy family is unhappy in its own way.'' 
And his point was we should find what works and extrapolate 
from that, and that microcosm, that smaller setting, instead of 
talking about grand, broad, sweeping policies that are based on 
research, based on theory, but might not pan out in practice.
    So I wondered if each of you might talk a little bit about 
a specific example, maybe a program, maybe a group or community 
that came together and was able to break through some of these 
barriers, and was able to get people to success because I, like 
you, share that passion and that crusade to make sure every 
American, no matter their ZIP Code, no matter the color of 
their skin, has the opportunity to be able to hope for a 
brighter and better future.
    So, I wonder if each of you might talk a little bit about 
that?
    Ms. Kijakazi. I would say, an initiative that worke was 
children's savings accounts, which was proposed by Michael 
Sherraden, and he really shifted our focus from just income to 
recognizing the importance of asset accumulation.
    Mr. Hollingsworth. These have been implemented?
    Ms. Kijakazi. Yes. There was a demonstration of children's 
savings accounts which demonstrated that low-income 
households--and the test was with low-income households--do 
save and invest. The issue is that we cannot save our way out 
of the racial wealth gap because it was not created as a result 
of people not saving. It was created as a result of structural 
racism, discriminatory policies and practices.
    Mr. Hollingsworth. Okay. What are some--
    Ms. Kijakazi. What we need--
    Mr. Hollingsworth. Reclaiming my time, what are some of the 
examples--that is a great example, and I appreciate you 
bringing that up. What are some other examples of practices 
that have worked and perhaps fully closed the gap or helped 
individuals get to a better place in their own lives?
    Ms. Kijakazi. The proposal of baby bonds has not been 
tested--
    Mr. Hollingsworth. Correct.
    Ms. Kijakazi. --but has been analyzed, and the 
determination was that it would almost close the wealth gap.
    Mr. Hollingsworth. Yes, a lot of theories.
    Yes, please, anybody?
    Mr. Asante-Muhammad. Yes, sir. One thing that has 
historically really moved millions of people forward and really 
created the white American middle class was the policies of the 
1940s and 1950s that created massive subsidies in 
homeownership, massive subsidies in education.
    I think most of us who study racial wealth inequality 
recognize that disenfranchised minorities were not included in 
that massive initial investment, so we need that once again, 
but for the first time to be inclusive. So I think that is a 
historic example of what can really move people forward and 
create a strong, secure economic security.
    I will also just put forward a more specific example. I 
have been in much conversation with the Association for 
Financial Planners, and one big challenge we have seen is that 
most financial education--as was mentioned by a colleague--has 
not been designed to really deal with the depth of racial 
wealth inequality.
    They make basic assumptions about middle income, high 
income, and assign a wealth value that Blacks and Latinos, even 
of the same income, are never there. So we have seen some 
success in better being able to work with households of color 
by actually factoring racial wealth inequality into their 
financial planning.
    Mr. Hollingsworth. Ms. Krawcheck, I have been a big fan of 
your career and followed you closely, and I really appreciate 
some of the work that you have done, especially with this new 
venture.
    I heard something that you said earlier which I found very 
interesting, that high minimums are inherently racist and 
sexist. That is something I know this committee, and 
specifically the Minority has been really, really focused on 
is, how do we lower some of the regulatory burdens that hold 
firms to these higher levels of investment, because they are 
holding people back and keeping people out of the system that 
we otherwise want in the system?
    I know something that the ranking member, whom I know had 
to step out, has been really passionate about is making sure 
that we have a thoughtful best interest policy coming out of 
the SEC so that we can enable and empower those with more 
moderate means to also get the advantages of financial 
planners.
    So, I appreciate the work that you have done in this area 
to ensure that everyone has a financial planner that they can 
help rely on, not just a robo-planner. Thank you so much.
    Ms. Krawcheck. Thank you.
    Mr. Hollingsworth. I yield back.
    Chairwoman Beatty. Thank you.
    The Chair now recognizes the gentlewoman from 
Massachusetts, Congresswoman Pressley, for 5 minutes.
    Ms. Pressley. Thank you, Madam Chairwoman. And thank you, 
Chairwoman Waters, for creating this subcommittee. And thank 
you, Chairwoman Beatty, for your continued leadership in this 
space.
    And I thank all of you for not only coming here today to 
testify, but for what you are doing each and every day. We are 
certainly grateful for your counsel and your expertise and your 
presentation today. And I apologize that I had to step out for 
a moment. I am working with some restaurant workers to 
eliminate the subminimum wage, which in many ways, given who 
represents that workforce, contributes to the very issue we are 
discussing today.
    But over the past 4 decades, wealth and income inequality 
has skyrocketed. Nearly half of all wealth grown since 1986, as 
you well know, has gone to the top 1 percent of our households, 
while the top 1 percent controls 42 percent of the nation's 
wealth. The wealth held by the bottom 90 percent of Americans 
is rapidly shrinking.
    You have spoken about my district already, some of you, in 
your testimony here today. The Massachusetts Seventh 
Congressional District, which includes Boston, is one of the 
most diverse and unequal districts in the nation. White 
households have a net worth of $247,500, while Black households 
have a median net worth of just $8. Yes, you heard that 
correctly, and it always bears repeating because it is a 
sobering and devastating confirmation of the work that we have 
to do.
    Now, none of this happens in a vacuum. This reality is as 
much an indictment of our inaction as it is of the Federal 
Government's role in selectively facilitating the wealth-
building of some while actively excluding others.
    But we are not here today just to double down on the 
problem; we are here to be prescriptive and solution-focused. 
And many of you have referenced the bicameral legislation that 
I have introduced in partnership with Senator Cory Booker, on 
baby bonds.
    And so I just wanted to just do a little bit of a deeper 
dive on that. There are some who would dismiss this baby bonds 
bill as another radical proposal. The legislation is simple: 
Upon birth, every child is given a seed savings account with 
annual contributions from the Federal Government until that 
child turns 18, and a stable 3 percent return. By their 18th 
birthday, children from the poorest families would receive up 
to $47,000. That is money towards tuition, a down payment on a 
home, or an investment in a small business.
    Again, some think this is radical. But in my district--
where median household income drops by $50,000 in a 3-mile 
radius, and life expectancy by 30 years--we do need to be doing 
something radical and bold to address that.
    So would anyone on the panel wish to speak more to the 
scale of our nation's wealth inequality and whether or not baby 
bonds are a measure proportionate to the problem?
    Ms. Kijakazi. Given the inequitable policies that have 
caused the racial and gender wealth gaps and the magnitude that 
you indicated, you call it radical, I call it bold solutions 
are needed, and baby bonds represent one of those bold 
solutions.
    You mentioned the data from Boston. That data was gathered 
by Darrick Hamilton and Sandy Darity with the data collection 
effort that was funded by the Ford Foundation that I 
referenced. It is information like that that lets us know just 
how great this problem is and that there is a strong need to do 
something about that.
    And I know that Darrick feels that the forming of your bill 
has improved on his concept by adjusting annually the amount 
that would be contributed to the endowment. So it is 
contributing to helping to, one, enlighten us about what is 
needed. We need additional data. I argue that additional data 
is important. And your bill asks for the Comptroller General to 
gather more information about providing additional information 
on the wealth of families, and I think that is only beneficial.
    Ms. Pressley. Thank you.
    Mr. Asante-Muhammad, again, since we arrived here because 
of policy, the path forward is going to require policy. So, in 
my remaining time here, do you mind just ticking off again the 
litany of legislative solutions that you are supportive of, 
because you did include baby bonds in that?
    Mr. Asante-Muhammad. Yes. I think, again, one of the most 
important things about the baby bonds proposal is that it is 
sustained long-term investment into households, because the 
racial wealth divide is so deep that, unless it is 20 years or 
longer, having that type of investment won't deal with this 
massive effect of racial wealth inequality.
    But we also have things like full employment with a high 
minimum wage, as you noted you are fighting for with restaurant 
workers. We also have noted Medicare for all because medical 
cost is a number-one source for bankruptcy.
    We also, again, have--collecting data and making sure that 
there is actually a racial wealth divide audit of our policies, 
because we can look at our policies and have an understanding 
of who it is going to benefit more and whether it is going to 
increase the racial wealth divide or bridge it.
    Ms. Pressley. And H.R. 40, and Senator Warren's bill, you 
also support? Okay.
    Mr. Asante-Muhammad. You know my 10 solutions better than I 
do, yes, ma'am.
    Ms. Pressley. Okay. All right.
    Thank you. I yield back.
    Chairwoman Beatty. Thank you.
    The Chair now recognizes the gentleman from Wisconsin, Mr. 
Steil, for 5 minutes.
    Mr. Steil. Thank you, Madam Chairwoman, and thank you for 
holding today's hearing on a critical topic.
    I want to dive in a little bit on the education side, if I 
can. I want to look at it from a couple of different angles, 
from college and Ph.D., and K-12.
    Dr. Cook, in your issue brief, you mainly discussed the 
relationship between low female and minority participation in 
STEM Ph.D. programs and these groups' comparatively low rates 
of patents and inventions.
    While it is clearly an important area for us to focus on, I 
think there are many well-paying jobs that require STEM skills 
that can be obtained with 2-year technical college degrees. 
This is especially true in my home State of Wisconsin, where 
advanced manufacturing and skills trade jobs can secure workers 
a place in the middle class.
    Can you comment a little bit on what role a 2-year 
technical college education can play in addressing gender and 
minority disparities in STEM career participation?
    Ms. Cook. Sure, I can say something about that. One thing 
that I want to stress is that, while I was giving data on Ph.D. 
attainment, that was just signaling. A lot of the jobs in the 
innovation economy require 2-year degrees, and they require 
specialization. Their programs, as in Massachusetts, at UMass 
Law, that focus on, say, advanced manufacturing, and those 
degrees are 2-year, 4-year, and so on.
    We have to have a workforce that is adequately prepared, 
and sometimes that is not always a bachelor's degree. So we 
have to be prepared any way we can be prepared, but that 
sputnik moment still has to come no matter whether it is a 2-
year degree or a 4-year degree or a 6-year degree or a 10-year 
degree.
    Mr. Steil. Thank you. I am going to go backwards in 
progression. I want to dive into K-12 here just a little bit 
with you, if I can. I look at the legacy of discrimination and 
how that plays a role in young students' trajectories through 
school and into the workforce.
    Providing kids with this exposure to STEM education, 
informing them about the career opportunities that are there, 
and ultimately chipping away at some of the empirical data that 
we have in front of us, that leaves a lot to be desired.
    As I look at this, I think there is a lot of kids who are 
locked into schools that don't provide them with the 
opportunities that can put them on that path to a better life. 
And in particular, I look at school choice and some of the 
innovative K through 12 programs that exist in the State of 
Wisconsin and how school choice is giving, and particularly, 
underrepresented minorities an opportunity to obtain an 
education that is not locked into their specific ZIP code, 
giving them the opportunity to live out a broader American 
Dream.
    Could you comment if any of your research has looked into 
school choice, in particular as it would impact 
underrepresented minorities pursuing a career in the STEM 
field?
    Ms. Cook. My research hasn't touched on that. I know that 
the evidence is fairly mixed with respect to school choice. But 
there are a lot of things that can be done right now that don't 
involve sort of grand plans related to, say, school choice on 
that level.
    If we just had lanes and stores where there weren't all of 
the cool toys, scientific toys associated with boys rather than 
with girls, and all of the pink things, fluffy and 
uninteresting things related to girls, and all of the ones 
related to Star Trek related to boys, there are simple things 
that could be done, or going to Spark!Lab at the Lemelson 
Center at the Smithsonian.
    There are simple things that can be done that don't require 
much money. The next time you run into Party Center, ask 
someone why all the rockets are over there in the boys' center.
    Mr. Steil. And I am not doubting that there is not--I think 
a lot of the things that we have brought up here today are 
actually really informative and helpful to think about. I do 
think that there could be additional research, in particular as 
to the impact the school choice could have, in particular for 
underrepresented minorities to be able to obtain that early 
education to get them on the track early.
    I have had the opportunity to see that firsthand in 
southeast Wisconsin, in the community of Racine and other areas 
in our State, where I believe school choice has given 
individuals who are from areas where maybe their local school 
isn't the right fit for them, an opportunity and a helping hand 
up, and I think that could be uniquely impactful. And so as we 
go forward, I hope that is an area we can continue to explore.
    I appreciate everybody being here, I appreciate the 
hearing, and I yield back.
    Chairwoman Beatty. Thank you.
    The Chair now recognizes the gentlewoman from North 
Carolina, Ms. Adams, for 5 minutes.
    Ms. Adams. Thank you, Madam Chairwoman, and thank you for 
convening this hearing. It is a topic that we need to be 
talking about. I want to thank all of the witnesses for being 
here.
    Many of us here have been shouting about, fighting for, and 
researching these issues for decades, and so having this 
conversation with this focus is long overdue. Let me just get 
right to my questions.
    Ms. Cook, in what ways have local and Federal policies 
created the racial and gender wealth gaps, and what are some of 
your proposed solutions?
    Ms. Cook. I can give one example with respect to Federal 
policy. The intentional destruction of Black neighborhoods with 
revitalization cannot be understated.
    One of the things that we know about patent teams--and I 
will get to my argument quickly. This won't take long--the 
highest number, the peak year for patenting for African 
Americans was 1899. There is still a median size of a patent 
team with African Americans on it of one.
    What you did was to break all of these social networks that 
African Americans had. These were independent inventors. They 
interacted with inventors. And what you did with 
revitalization, what happened with revitalization was that 
these communities were further separated from businesses, from 
economic activity. So that is one policy. African Americans not 
being able to take full advantage of the GI bill, that is 
another policy. These are broad policies, but they are 
everywhere. They are not in just one place.
    Were you asking me for recommendations, or were you asking 
me just to name some of those policies?
    Ms. Adams. Well, recommendations.
    Ms. Cook. Okay, recommendations. I mentioned CDFIs. But 
also, again, this is from my research, the Small Business 
Innovation Research (SBIR), and the Small Business Technology 
Transfer (STTR) programs have been effective in bringing new 
invention and innovation to the fore. That is something that 
can be pushed more, and there can be more outreach and 
engagement with respect to women.
    I thank you all for passing the SUCCESS (the Study of 
Underrepresented Classes Chasing Engineering and Science 
Success) Act, which was based on my research, from my reading 
of it. And the IDEA (Individuals with Disabilities Education) 
Act is before you now. Those can encourage innovation by women 
and underrepresented minorities simply by counting them. That 
is an important part of it.
    And I would say that more support for programs like my own, 
the American Economic Association Summer Program, that provide 
mentoring and provide training with respect to STEM fields, I 
think, would be very useful, but that is long term.
    Ms. Adams. Thank you very much.
    Ms. Krawcheck, what is your opinion on the current 
corporate efforts towards closing their own gender pay gaps? We 
know that there is not a lot of transparency there. I am 
curious about what you think.
    Ms. Krawcheck. The research tells us that the gender pay 
gaps are decades away from closing for white women; 100-plus 
years for Black women; and 200-plus years for Latinx women, 
which is very little progress.
    Companies today tend to double down on what they have been 
doing in order to close it, active inertia, in which they just 
do the things they have been doing that haven't been working 
and just continue to do more of it. Where it has been 
successful is where CEOs like a Marc Benioff at Salesforce have 
simply decided to close the gender pay gap and have just done 
it.
    Ms. Adams. Okay. So does any other witness have a solution 
for encouraging companies to become more transparent about 
racial and gender compensation data? Because oftentimes, they 
don't know what that is.
    Ms. Pyle. I think transparency in wages and salary is 
absolutely essential for closing all of these gaps. People 
often don't know how much the person sitting next to them doing 
the same job is earning. I think people should be able to 
freely discuss their pay with each other.
    I think that the average pay for workers by gender and by 
race and ethnicity at certain categories should be publicly 
available, not by individual names necessarily but by 
categories, so that people have a better sense of where they 
fall along the continuum. But that transparency is absolutely 
essential.
    Ms. Adams. Okay. Does anyone else want to add something?
    Mr. Asante-Muhammad. I will just put forward that I think 
companies need to boldly name these challenges. JPMorgan Chase 
recently created the Advancing Black Pathways program, that is 
focusing on a multitude of levels of one having much more clear 
data on how African Americans are doing in their company, doing 
mentorship, doing direct outreach. So, I think those types of 
bold policy programs are required in a corporate sector.
    Ms. Adams. Thank you very much.
    Madam Chairwoman, I am going to yield back my time.
    Chairwoman Beatty. Thank you.
    The Chair now recognizes the gentleman from Ohio, Mr. 
Gonzalez, for 5 minutes.
    Mr. Gonzalez of Ohio. Thank you, Madam Chairwoman, for 
leading this important hearing, and thank you, everybody, for 
your participation.
    The data is clear and overwhelming, and I, for one, am 
thrilled that we are starting to have serious conversations 
about what the drivers are and how we can fix this. We may have 
different answers ultimately, but the fact that the 
conversations are taking place in a serious manner, I think is 
really important, and so I just want to thank you all for all 
your contributions today and in general.
    One area that I would like to focus on with respect to 
wealth inequality is borrowing costs and lending costs. The 
reality is, if you are borrowing at a 5-percent rate, a 4-
percent rate, or a 3-percent rate, compounding capital and 
building wealth can occur. If you are disconnected from that 
environment, it can be awfully difficult if your rates are 10, 
20, or 100 percent. Warren Buffett can't build wealth that way.
    So I guess with that, I will start with Dr. Pyle. 
Specifically, in your testimony, you discuss how women are more 
likely to receive high-cost loans such as subprime home loans. 
How could the use of financial technology help address this 
problem by providing more access to credit? And I know we have 
some issues there too, but I just want to talk about the 
opportunity.
    Ms. Pyle. I think, given appropriate financial information 
and education, women are extremely savvy financial decision-
makers. I think that they were unfairly targeted, and at the 
same levels of credit score and repayment ability they were 
targeted with much higher interest rates, and this really 
undercut their ability to build wealth.
    I think there are a lot of opportunities out there for 
products and for services for women to really help close that 
gap. And I think it is absolutely, absolutely essential because 
wealth is not just about how much you are earning in terms of 
interest; it is how much you are not paying in these other 
types of fees and interest rates.
    So I feel that women are really savvy, but they need a 
little bit more information and a little bit more transparency 
in the products that are being offered to them.
    Mr. Gonzalez of Ohio. Great. And I think that is one of the 
great promises about technology. Technology--I think people 
have ascribed value to it, but I think it is value- neutral. It 
depends on how you apply it. And in this instance, I think it 
creates some really exciting opportunities.
    Dr. Cook, in your report you discuss how mentorships can be 
a valuable tool for retention within the STEM fields. Can you 
give some specific examples, kind of to Representative 
Hollingsworth's questions earlier? What specific examples have 
you seen that have worked really well?
    Ms. Cook. One example that comes up in my research is that 
of James West at AT&T. He mentored at least two generations of 
Ph.D. students who were at AT&T, and AT&T used to have one of 
the most sweeping programs for Ph.D. students, for 
undergraduate and Ph.D. students promoting equity, so lots of 
women, and lots of underrepresented minorities.
    And he had a distinguished career of invention and 
including those students on patent teams, for example. So this 
is where a lot of women and underrepresented minorities get 
excluded.
    My research shows that single-sex teams are less productive 
than coed teams, patent teams. So we are leaving a lot of money 
on the table if we have either single-sex male or single-sex 
female patent teams. So that is a sort of concrete way in which 
there can be changes made in patenting.
    Mr. Gonzalez of Ohio. That makes a lot of sense. Thank you 
for sharing that.
    And then, Dr. Pyle, I was looking through your testimony, 
and you provide the mean and median wealth for couples, single 
men, and single women. And there is obviously a huge gap 
between single males and single females: $10,000 in median 
wealth for single males versus $3,200 for single females.
    What I believe is that the bigger gap, or the one that I 
really wish we could solve, is the couples one. So the couples, 
$78,000. And when I say that, what I mean is this: I believe 
one of the main drivers to a lot of the problems we have in our 
society today is the breakdown of the family. I think we have 
seen that across ethnic minorities, but also across the entire 
society.
    And this is why I think this is so important. We know that 
one of the biggest drivers to family breakdown is financial 
stress. And so, if we get this right and we find ways to be 
more inclusive in the financial system, my hope is that what we 
will see is a world where we have more families forming and 
staying together, because it is my belief that if we truly want 
to rebuild this country, we have to rebuild our families.
    And with that, I yield back.
    Chairwoman Beatty. Thank you.
    The Chair now recognizes the gentlewoman from Texas, Ms. 
Garcia, for 5 minutes.
    Ms. Garcia of Texas. Thank you, Madam Chairwoman. And thank 
you for holding this hearing on such an important topic to many 
of us, and it is not just to some of us who may be women or may 
be minorities, but really it does impact all of us and, more 
importantly, the nation's economy.
    I want to thank all of the panel members today. And, quite 
frankly, Madam Chairwoman, I don't know about you, but I am 
still trying to digest the last statement that Ms. Krawcheck 
made--it will take Latinas 200 years to catch up? And African 
Americans, 100 years? Madam Chairwoman, I don't think we are 
going to be around to make any of those rewards or gains or 
whatever that might be.
    I am just completely astounded by that. I knew it was bad, 
but, quite frankly, until you see the numbers, you really don't 
get the message about how bad it is. And I know there seems 
sometimes a narrative that, well, it is all individual choice, 
if the individual just took responsibility, if they just 
decided to do what they could.
    But the reality is that, even though we can say that we 
should make opportunities so that no one, no matter what their 
ZIP Code, that they can achieve, the reality is that your ZIP 
Code makes a big difference, doesn't it?
    Because what we are faced with is not something that can be 
fixed overnight or that one law or two laws can pass and we fix 
it. It is the infrastructure. It is all of the things together 
that have existed, not just today but many years ago, and have 
been building and building.
    So I am just somewhat perplexed trying to figure out, of 
all the things all of you all have mentioned--because all of 
those are great policy interventions, but we have done some of 
that already. And in Texas, we have this saying that you can 
take the horse to the water, but you can't make the horse drink 
the water.
    So my question to you is, with which of these policies can 
we get that horse to drink the water, not only to see that 
there is a CRA and there are housing incentives, that there is 
equal pay for equal work, how do we get that damn horse to 
drink the water and really get engaged and buy-in? And quickly, 
everybody, I think we have maybe less than a minute for each of 
you.
    Ms. Kijakazi. Thank you. I think that it takes a package of 
policies to dismantle the structural racism that exists. So it 
is not just one policy, and perhaps it didn't work because one 
policy was tried at a time, but the combination or a package of 
change in policies that are intended to change.
    Ms. Garcia of Texas. Great.
    Mr. Asante-Muhammad?
    Mr. Asante-Muhammad. Yes. And to take your analogy, I don't 
think the issue so much--I am not exactly sure who is the horse 
and what is the water, but I don't think so much the analogy is 
that the horse isn't taking the water, meaning communities of 
colors aren't willing to take the investments needed to 
actually create a stable middle-class economy for themselves. 
It is that the country has never provided water to these 
communities that would allow this type of stability.
    And so, again, for the first time, we have to do a massive 
middle-class investment that was done for white America in the 
1930s, 1940s, and 1950s, but has never been done for 
disenfranchised minorities.
    Ms. Garcia of Texas. Okay.
    Ms. Pyle?
    Ms. Pyle. I took the horse-and-water analogy a little bit 
differently, talking about how leaders could come together and 
drink the water.
    Ms. Garcia of Texas. And the institutions, the banks can 
really embrace and take ownership and really do something with 
the Community Reinvestment Act. Housing developers can really 
take the housing incentives and other tools to really build 
communities for lower, affordable housing, et cetera. We can 
put it there, but they may not do it. They don't do it.
    Ms. Pyle. I think what we have to realize is that these are 
not just policies that benefit a small subset of the 
population. These are policies and these are actions that will 
benefit the entire nation.
    So, if there is a community in the nation that is not 
living up to its full potential because they are being denied 
opportunities in STEM or in the labor market, for example, or 
if they are being denied housing because of discriminatory 
policies, that impacts not just that particular person or that 
particular community, it really impacts our entire nation, our 
entire ability to grow economically. So I think that we are 
very shortsighted when we think about these types of policies 
as benefiting only a small subgroup rather than the nation as a 
whole.
    Ms. Garcia of Texas. Agreed.
    Ms. Krawcheck?
    Ms. Krawcheck. I would like to add one very quickly that we 
haven't talked about today. Coming at it from a private-sector 
perspective, if there was one thing I could change, it would be 
to have mandated paid parental leave. That is where we see the 
gender pay gap really kick in, as women begin to have babies.
    And this is despite the research that just a minority of 
companies in this country have this type of paid leave. Despite 
the research that shows us that it is not an expense, it is an 
investment that pays for itself in less than a year. Because if 
a woman and her family are allowed to bond and come together in 
those early days, weeks, and months, she is more likely to 
return to work. The company therefore doesn't have to find a 
replacement and pay for them and train that replacement. So if 
I could do one thing, that is what it would be.
    Ms. Garcia of Texas. Ms. Cook, quickly, because I might run 
out of time, and I am working on the Chair's indulgence at this 
moment.
    Ms. Cook. Okay. I would make one quick, narrow suggestion. 
Private universities can't or don't reveal their data like 
public universities have to. All of them have 501(c)(3) status 
or 40--whatever their nonprofits.
    Ms. Garcia of Texas. Or at least a foundation.
    Ms. Cook. Right. And they receive Federal funding. So if 
they don't supply these data, so we can talk about voluntarily 
doing this, but those are huge universities, and they have a 
lot of influence. And this affects the entire stream that we 
are talking about, the entire innovative process, the financial 
literacy, financial education. Those universities should be 
made to make their wage data public as well.
    Ms. Garcia of Texas. Thank you.
    And thank you, Madam Chairwoman.
    Chairwoman Beatty. Thank you.
    And thank you to all of our witnesses today for your 
testimony: Ms. Kijakazi; Mr. Asante-Muhammad; Ms. Pyle; Ms. 
Krawcheck; and Dr. Cook.
    I have several articles that, without objection, I would 
like to enter into the record.
    Without objection, it is so ordered.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    This hearing is now adjourned.
    [Whereupon, at 3:39 p.m., the hearing was adjourned.]

                            A P P E N D I X



                           September 24, 2019
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     [all]
</pre></body></html>
